ES, IG-99-003, Delivery Order Placement Under Outsourcing Desktoop Initiative Contracts
DELIVERY ORDER PLACEMENT UNDER
OUTSOURCING DESKTOP INITIATIVE CONTRACTS
IG-99-003
Executive Summary
Introduction
The NASA Office of Inspector General performed a review of delivery order
(1) placement under the Outsourcing Desktop
Initiative for NASA (ODIN) contracts.  Our overall review objective was to
assess the Agency's readiness to place scheduled delivery orders.
Specifically, we reviewed NASA's process for identifying "lessons learned"
from desktop outsourcing and the management of  delivery order placement.
To satisfy our review objectives, we conducted interviews from July 21,
through September 11, 1998, at NASA Headquarters, Goddard Space Flight
Center, John F. Kennedy Space Center, and the Jet Propulsion Laboratory.
Also, we reviewed documents, dated August 1997 through September 1998,
related to the ODIN contract and overall program management activities.
Results in Brief
NASA can improve its readiness to place ODIN delivery orders by implementing
an effective program management process.  Key documents such as the Program
Commitment Agreement and program plan and an overall risk management process
have not been approved and put into effect as required by NASA policy.
Improved program management will help NASA identify and benefit from
lessons learned from outsourcing and effectively manage ODIN delivery
order placement.
Recommendations for Corrective Action
Recommendation 1.  The NASA Chief Information Officer should submit
an ODIN PCA to the NASA Administrator for review and approval.
Recommendation 2.  The ODIN program manager should complete and
execute a program plan for ODIN.
Recommendation 3.  The ODIN program manager should establish a
continuous risk management process that will identify risk and its effects,
prioritize risks for mitigation or elimination, and maintain a risk
management plan.
FOOTNOTE
1.  A delivery order is a formal agreement made under an
Outsourcing Desktop Initiative for NASA (ODIN) contract that definitizes
the quantity and delivery date for ODIN services.